No.

IN THE SUPREME COURT OF THE UNITED STATES
ZACHARY GAGE PEBLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE ON OPPOSING COUNSEL
In accordance with Supreme Court Rule 29.5, Barbara L. Woltz, attorney at law, hereby
acknowledges and verifies that on the 9th day of July, 2021, a duplicate copy of the Motion for
Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari to the United States
Court of Appeals of the Tenth Circuit in the above-styled cause, with appendix, was sent by
fully paid U.S. Mail to the following counsel for Respondent:
United States Attorney
Eastern District of Oklahoma
520 Denison Avenue
Muskogee, OK 74401

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
s/ Barbara L. Woltz
Barbara L. Woltz
Okla. Bar Assn. No. 12535
Office of Federal Public Defender
Eastern District of Oklahoma
627 West Broadway
Muskogee, Oklahoma 74401-6220
Phone: (918) 687-2430
Barbara_L_Woltz@fd.org
Counsel of record for Petitioner

